No. 05-20.

In The

Supreme Court of tfje Hmteb States!
c c"' c a n r?, R

Yj fti \: u 'i 'j i... ,nv' r$r, *.
w! MO j-41. M h M,
.

^bkiU'&fiUuUU au-

Paul Cook
Petitioner;

V.

The State of California
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO
THE COURT OF APPEAL OF CALIFORNIA

Paul Cook
14845 Ramona Blvd.
Baldwin Park, California
818-724-4361
Cookp2Q12@lawnet.ucla.edu
Pro Se

FILED
NOV 05 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

l:

i

‘In

QUESTIONS PRESENTED
1. Can a for-profit law firm, without supervision from the public prosecutor,
be contracted out to criminally prosecute someone and still be impartial
and fair under the Due Process clauses of the 5th and 14th Amendments?

LIST OF PARTIES
[XX] All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the court whose judgment is the subject
of this petition is as follows:
Name

Role

1. Baldwin Park Unified School
District, all of its current and
previous, public officials and
employees.

Respondent

2. Partnership
of
Atkinson,
Andelson, Loya, Ruud & Romo.

Real Party in Interest, Private Law
Firm illegally representing the
People.

3. Los Angeles
Attorney

Real Party in Interest

County

District

4. Attorney General of California

Real Party in Interest

RELATED CASES
People v. Cook, No. BS42047 (Los Angeles Superior Court, judgment filed on
March 6, 2020) (currently, pending appeal on the final judgment).

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

9

CONCLUSION
APPENDIX A: CALIFORNIA SECOND DISTRICT, COURT OF APPEAL
DENIAL ORDER AFTER SUPREME COURT MANDATED REVIEW, CASE
NO. B305668 (May 15, 2020)

.AX-01

APPENDIX B: TRIAL COURT TRANSCRIPT, Case No. BS42047 (October 24,
2019)

AX-04

APPENDIX C : APP. DIV. ORDER DENYING JURISDICTION, Case No.
BR045820 (Feb. 11, 2020)

AX-016

APPENDIX D: COURT OF APPEAL, SUMMARY DENIAL OF WRIT, Case No.
B304502, (March 6, 2020)

AX-019

APPENDIX E: CALIFORNIA SUPREME COURT ORDER TRANSFERRING
THE MATTER BACK TO THE COURT OF APPEAL, Case No. S261983 (May
5, 2020) . .

.AX-021

APPENDIX F:

CALIFORNIA SUPREME COURT ORDER DENYING

PETITION FOR WRIT OF MANDATE, Case No. S262406 (June 10, 2020)
AX-023
APPENDIX G: CALIFORNIA SUPREME COURT ORDER DENYING
PETITION FOR REVIEW, Case No. S262338 (July 24, 2020)

.AX-025

TABLE OF AUTHORITIES CITED

U.S. SUPREME COURT CASES
Robertson v. US Ex Bel. Watson,
560 US 272 (2010).............
Steel Co. v. Citizens for Better Environment,
523 U.S. 83, FN24 (1998).....................
Young v. United States ex rel. Vuitton et Fils SA,
481 US 787 (1987).................................. ..

en passim

13

en passim

CALIFORNIA CASES
Haas v. County of San Bernardino•,
119 Cal.Rptr.2d 341 (2002) .

16

Meehan v. Hopps,
45 Cal.2d 213 (Cal. 1955)

6

People v. Ehlers,
Cal. Sup. Ct. Case No. ELM9EM07323, (Arraignment Jan. 7, 2020)
.................................. .......................................................................... 14, 15, 20, 21, 22
People v. Vasquez,
39 Cal.4th 47, 70 (Cal. 2006)
Weiss v. City ofLos Angeles,
2 Cal. App. 5th 194, 207 (Cal. 2016)

8, 13

4

CALIFORNIA STATUTE
California Penal Code § 19.7

5, 23, 24

OTHER STATE CASES
People v. Calderone,
573 N.Y.S.2d 1005, 1007 (N.Y. City Crim. Ct. 1991)

9

Wilson v. Wilson,
984 S.W.2d 898, 903-904 (Tenn. 1998)

9

LAW REVIEW ARTICLES
John Bessler’s, The Public Interest and the Unconstitutionality ofPrivate
Prosecutors (47 Ark. L. Rev. 511, 521 (1994)).................................................

I

12

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner, Paul Cook, respectfully prays that a writ of certiorari issue to review
the judgment below.
OPINIONS BELOW
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix F & G to the petition and was summarily denied and [XX] is
unpublished.
Petitioner, Paul Cook, respectfully prays that a writ of certiorari issue to
review the California Court of Appeal denial order at appendix A to this
petition. The California Supreme Court ordered the Court of Appeal to review
the case, but only issued a one paragraph order, holding that even though a forprofit private law firm represented the People and presented a conflict, the
Appellant-Defendant had the burden of showing how such a conflict prejudiced
the Defendant. Here, the Court of Appeal didn’t believe that such a conflict
warrants a writ or reversal.

1

JURISDICTION

[XX] For cases from state courts:
The date on which the highest state court decided my case was on June 10th, 2020.
A copy of that denial appears at Appendix F & G. Appellant filed both a Petition
for Writ of Mandamus and a Petition for Review against the Court of Appeal Order
(Appendix A). Both were summarily denied. (The Petition for Review was denied
on July 10, 2020, but the court clerk reissued the denial on July 24, 2020, because
the Court of Appeal number was incorrect.)
[XX ] Petition for rehearing cannot be filed for a denied writ or Petition for Review.
[XX ] This Court, under its emergency order extended the writ of cert deadline by
60 days. Hence, the due date for the writ of cert is November 7, 2020.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL PROVISIONS

U.S. Const. Amend. V:
. . . No person shall be . . . deprived of life, liberty, or property, without due
process of law [.]

U.S. Const. Amend. XIV, sec. 1:
. . . No State shall . . . deprive any person of life, liberty, or property, without
due process of law . . .

3

STATEMENT OF THE CASE
Defendant was cited by a school police officer for allegedly running a stop
sign1 at the local elementary school on July 31, 2020 at 8:55 PM2. Before
arraignment, Defendant filed a motion to compel discovery, amongst other
motions.
Then on or around October 9, 2019 — the School District hired the private
law firm of Atkinson, Andelson, Loya, Ruud & Romo, through their attorneys,
Sarah Lustig (Lustig) and Alfonso Estrada (Estrada, to appear as the People on
behalf of the School District). They opposed the motion with a lengthy 38-page
opposition.
Hence, Lustig and Estrada represented the People to criminally prosecute
the traffic citation under California Penal Code § 19.7 at the local courthouse.
In California, Section 19.7 states in relevant part, “all provisions of law relating
to misdemeanors shall apply to infractions”. (The California Legislature decided
to prosecute the vehicle infraction as a criminal charge. If it wanted to, the
California Legislature could have prosecuted this infraction civilly, as it did in
1993 with parking citations, removing them from criminal courts to civil court.
See Weiss v. City ofLos Angeles, 2 Cal. App. 5th 194, 207 (2016).)

1 Defendant denies doing this and has never been found guilty of traffic ticket in 20
years on his California driver’s license.
2 Defendant believes the school district has no right to even have jurisdiction to
cite individuals given the facts. There were no students or staff around.
Jurisdiction over city streets is with the city police. Private prosecution is just
another tool for the school district to expand unlawful power it shouldn’t have.

4

■f

On October 24, 2020 - Alfonso Estrada, a partner, who charges at $295
an hour, appeared as the People on the day of arraignment and hearing on the
Defendant’s motion.
Defendant objected on the record regarding private counsel’s appearance
as the People, because under Due Process and California Government Code §
41803.5, a city (and not a school district) can prosecute misdemeanors and that
can only be done by receiving consent from the local District Attorney. In open
court, the following was stated:
PAUL COOK[00:02:47.18] ... I would like to say that the private counsel
on my left is not allowed to be here today, they need to take a seat
because this is a criminal matter, as the case has been set under Penal
Code 19.7.
[Without even giving a thought, the court ruled.]
THE COURT[00:03:00.15] Alright that request is denied. (AX-07:l-6.)
The trial court judge denied the disqualification order and cut off the
Defendant from making further arguments.3 {Id)
On or around November 15, 2019, Cook filed an interlocutory appeal, at

3 Before the private law firm was involved, the trial court stated that it would
dismiss the traffic ticket if the school district failed to supply discovery. After the
private law firm became involved, the trial court judge had a change of heart and
proceeded to totally deprive Defendant of Due Process as explained later.
The trial court, at trial, on multiple instances wouldn’t permit Defendant to make
his record.

5

the Appellate Division4 in the Los Angeles Superior Court regarding the issue of
private criminal prosecution.
On January 17, 2020 - the Appellate Division filed an order requesting
letter briefing from the District Attorney and Defendant as to the authority that
gave the Appellate Division interlocutory jurisdiction.
On January 31, 2020 - Defendant filed a letter brief arguing that an
interlocutory appeal was mandahny on a denial order of the disqualification of
counsel under Meehan v. Hopps, 45 Cal.2d 213 (1955),
Furthermore, Defendant argued in his letter brief to the superior court
that the private representation was a violation of Due Process, because a
private attorney, who is getting paid by the hour, cannot be objective and fair
under Due Process. Criminal prosecutors require independent and fair
judgment for mainly two reasons. One, prosecutors must not file cases without
probable cause. Two, prosecutors should issue a fair deal under their discretion
to plea bargain.
The District Attorneys office did not file a letter brief. Therefore, only the
Defendant’s brief was before the Appellate Division.
On February 11, 2020 - the Appellate Division ruled that it didn’t have
jurisdiction over the case, even though authority is clear that it had no right to

4 The Appellate Division is a branch of the Los Angeles Superior Court, which
hears appeals for misdemeanors. In other words, such appeals cannot directly go to
the Court of Appeal in California.

6

dismiss the appeal. (AX-017-018.) On February 18, 2020 - Cook filed a petition
for rehearing, a request for a statement of decision, and request to transfer the
matter to the Court of Appeal. On February 24, 2020 - the Appellate Division
denied all the above motions.
On February 26, 2020 - Cook filed a writ of mandamus at the Court of
Appeal to transfer and hear the case from the Appellate Division.
On March 6, 2020 - right before trial - the Court of Appeal summarily
denied the writ. (AX-018).
On March 6, 2020 - the trial judge found the Defendant guilty. (After
filing the interlocutory appeal, the private attorney declined to appear as the
People5 at trial and instead watched from the jury box.)
On March 30, 2020 - Cook filed his second notice of appeal6, which is still
pending at the superior court Appellate Division at the time of filing this writ of
cert.
On April 30, 2020 - Defendant filed a writ of mandamus in the California

5 Circumstantial evidence suggests that there may have been ex parte
communication between the court and the private law firm, which was motivated
by Defendant’s interlocutory appeal. It’s just another fact that makes the practice
of private criminal prosecution tarnish the integrity of the judicial system.
6 At trial, Defendant was totally deprived of Due Process. Defendant was denied
the right to have counsel represent him at his own expense, to have Brady
discovery, to fully cross-examine the officer, to have impeachment evidence against
the officer under Pitchess, and to have a right to a reasonable doubt standard
(here, the officer, the sole witness against Defendant, impeached himself twice on
the record.)
7

Supreme Court for the first interlocutory appeal, which was summarily denied
on March 6, 2020.
On May 5, 2020 - the Supreme Court directed review of the case back to
the Court of Appeal, Division 5. (AX-022).
On May 15, 2020 - the Court of Appeal again summarily denied the writ,
this time holding that the conflict wasn’t enough to prove prejudice under
People v. Vasquez (2006) 39 Cal.4th 47, 70. Vasquez held that Defendant
needed to prove that the conflict the Defendant faced by a partial prosecutor
prejudiced his case. (AX-02-03.) (The Court of Appeal opinion is in direct conflict
with Young v. United States ex rel. Vuitton et Fils SA, 481 US 787 (1987)
[hereinafter (“ Young')] - which held that a financially interested prosecutor
warrants a reversal under harmful error because of the egregious questions of
integrity regarding the justice system.)
On May 22, 2020 Cook filed a petition for review at the Supreme Court.
On May 28, 2020 - Cook also filed a writ of mandamus at the Supreme
Court, in the event that it wanted to mandate review with the Court of Appeal
again.
On June 10, 20 207 - both Cook’s writ and petition for review were denied
by the California Supreme Court. (AX-024 & AX-026).
Petitioner now seeks a writ of certiorari from this Court on the sole
7 The Petition for Review is dated July 24, 2020, because the court had to reissue
the order after correcting the Court of Appeal number on it.

8

question of whether a for-profit attorney, charging billable hours, can be a
public criminal prosecutor without violating his duty to be fair and independent
under the 5th and 14th Amendments.
REASONS FOR GRANTING THE PETITION
I.
THE COURT SHOULD GRANT REVIEW TO DETERMINE
WHETHER THE CRIMINAL PROSECUTION CAN BE PRIVATIZED
UNDER DUE PROCESS.
A. Young v. United States Leaves Open the Question: Does the
Defendant have a Due Process Right to a Fair and Impartial
Prosecutor?
As Solicitor General Justice Kagan pointed out in her brief advocating
the dismissal of Robertson, under Young v. United States ex rel. Vuitton et Fils
SA, 481 US 787 (1987):
Since Young, state courts have reached different conclusions on the
question whether there is a due process right to a disinterested
prosecutor. Compare, e.g., Wilson v. Wilson, 984 S.W.2d 898, 903-904
(Tenn. 1998) ("We hold that Due Process does not mandate adoption of a
rule which automatically disqualifies a litigant's private counsel from
prosecuting a contempt action."), cert, denied, 528 U.S. 822 (1999), with,
e.g., People v. Calderone, 573 N.Y.S.2d 1005, 1007 (N.Y. City Crim. Ct.
1991) ("[P]rivate prosecutions by interested parties or their attorneys
present inherent conflicts of interest which violate defendants' due
process rights."). See U.S. Solicitor General Brief for Robertson v. U.S.
Ex. Rel. Robertson v. US Ex Rel. Watson, 560 US 272 (2010) [hereinafter

9

(“Robertson”)] (Kagan’s Solicitor General Amicus Brief, filed Nov. 6,
2009[hereinafter (“U.S. Solicitor General Brief’)]8).
In Young, Justice Blackmun concurred and stressed, “I would go further,
however, and hold that the practice — federal or state — of appointing an
interested party's counsel to prosecute for criminal contempt is a violation of
due process.” {Id. at 814-815).
Hence, under Court Rule 10(c), this Court should grant cert because “[1] a
state court . . . has decided an important question of federal law that has not
been, but should be, settled by this Court [and] [2] has decided an important
federal question in a way that conflicts with relevant decisions of this Court.”
One, the Court’s holding in Young v. United States ex rel Vuitton et Fils, 481
U.S. 787 (1987) needs clarification, and as presented here, even the appellate
courts in California are issuing rulings in conflict with it. Furthermore, there’s
a widening split on how all 50 states are interpreting Young. Two, the
privatization of criminal prosecution is trending across all 50 states, as
discussed more below.
As Justice Blackmun recognized, Young left open two questions. One,
does an interested criminal prosecutor violate Defendant’s right to Due Process?
Two, does a defendant enjoy a federal constitutional right to have a fair and
impartial prosecutor?

8 Available at https://www.justice.gov/osg/brief/robertson-v-united-states-ex-relwatson-amicus-merits.

10

Petitioner advocates that a for-profit lawyer acting in the role of criminal
prosecution violates Due Process. All criminally accused defendants should
have the right to a fair and impartial criminal prosecutor.
In Young, the court permitted the appointment of a private law firm to
prosecute criminal contempt proceeding, and this Court reversed. The private
law firm was the attorneys for the civil plaintiff. Regarding the case, the Court
held that in criminal contempt proceedings, “Regardless of whether the
appointment of private counsel in this case resulted in any prosecutorial
impropriety (an issue on which we express no opinion), that appointment
illustrates the potential for private interest to influence the discharge of public
duty. ... In short, as will generally be the case, the appointment of counsel for
an interested party to bring the contempt prosecution in this case at a
minimum created opportunities for conflicts to arise, and created at least
the appearance of impropriety” {Id. at 806).
The Court further held: “Appointment of an interested prosecutor is also
an error whose effects are pervasive. Such an appointment calls into question,
and therefore requires scrutiny of, the conduct of an entire prosecution, rather
than simply a discrete prosecutorial decision.” {Id. at 812-813).
In crafting a remedy, the Court held, “Public confidence in the
disinterested conduct of that official is essential. Harmless-error analysis is not
equal to the task of assuring that confidence.” (813-814).
Yo ung conclu de s:

11

Between the private life of the citizen and the public glare of
criminal accusation stands the prosecutor. That state official has the
power to employ the full machinery of the state in scrutinizing any given
individual. Even if a defendant is ultimately acquitted, forced immersion
in criminal investigation and adjudication is a wrenching disruption of
everyday life. For this reason, we must have assurance that those who
would wield this power will be guided solely by their sense of public
responsibility for the attainment of justice. [A private] prosecutor . . .is
required by the very standards of the profession to serve two masters.
The appointment of counsel for . . . to conduct the contempt prosecution in
these cases therefore was improper.
Despite Young’s harsh remedy for private prosecution, since Young,
according to John Besslers, The Public Interest and the Unconstitutionality of

l

Private Prosecutors9, “[cjurrently, a split of authority exists regarding whether

)

private prosecutors are constitutionally permissible.” (47 Ark. L. Rev. 511, 521
(1994)). According to Bessler, some states ban private prosecution completely,
some states permit it under the supervision of the public prosecutor, and at
least since 1994, some states like Ohio, Montana, and Alabama (under certain
circumstances) permit unbridled, private criminal prosecution. {Idat 529).
After Young, courts however have held that Young only represents a case

9 Cited by this Court in Supreme Court case in Steel Co. v. Citizens for Better
Environment, 523 U.S. 83, FN24 (1998).

12

on “supervisory authority,” or have disregarded the holding by distinguishing
the case. The California Appellate Court in this case issued a ruling in direct
conflict with Young. The California Court of Appeal held in its summary denial
of the writ, that even though there was a conflict, under People v. Vasquez, that
Defendant had not shown how that conflict prejudiced him in his case. But
Young held that the conflict presented by private criminal prosecution is so
egregious to the appearance of the justice system, that such a case is not only
reversed but dismissed to deter the government from engaging in such
practices.
Here, this case proves that the concerns that the Court had in Steel Co.,
when it stated, “According to these historians, private prosecutions developed in >
England as a means of facilitating private vengeance." (Steel Co. v. Citizens for
Better Environment, 523 U.S. 83, FN24 (1998)). There’s more to this case than
just a traffic ticket and a private law firm prosecuting it.
Here, Defendant is an attorney and activist and journalist. Defendant
was puzzled by the odd encounter with the school police officer on summer
holidays, outside of school hours; so, he investigated the school police
department and discovered that the school police chief that the local school
police chief was a felon; an insurance fraudster; and a serial sexual predator,
who was fired from the LAPD for a number of violations and published it on his

13

blog10. The school district, against its own will, had no choice but to suspend the
school police chief, who is still suspended as of filing this writ. Afterwards, the
school district sought vengeance by spending thousands of dollars of the
taxpayer money, to criminally prosecute a $238 traffic ticket. This money
could’ve been better spent on educating the students of the City.
Again, this example points to the fact that private prosecution schemes in
the hand of local public agencies (that are not the public prosecutor) can be a
tool to punish political enemies, journalists, critics, and even gadflies. (And as
already mentioned above, the other errors of this case calls into question the
integrity of the judicial system, when a private prosecutor for profit engages in
such a scheme, even when hired by a public agency.)
Recently, Petitioner, as an attorney representing another Defendant, had
the issue of private prosecution re-appear. In People v. Ehlers, the City11 hired

10 The article is titled: Ex-felon, Fraudster, & Sexual Predator: The Secret Life of
Baldwin Park's School Police Chief - Jill Marie Poe.
It starts, “Baldwin Park's Unified School Police Chief, Jill Marie Poe had a secret
life, which she doesn't want you to know about. Besides being fired from the Los
Angeles Police DepartmentLA for being a sexual predator - she’s also an ex-felon,
who pled guilty to auto insurance fraud and filing a false police report. Now, she's
around children from age 5 to 18. One has to wonder how this happened. . . .”
Paul C., Ex-felon, Fraudster, & Sexual Predator: The Secret Life ofBaldwin Park's
School Police Chief - Jill Marie Poe, THE LEGAL LENS, September 4, 2019,
https://alehemistcook.blogspot.com/2019/Q9/ex-felon-fraudster-sexualpredator.html.
u

The City of Baldwin Park has an established history of retaliating against the
First Amendment, maliciously and without merit. The City files meritless

14

the private law firm of Jones & Mayer to prosecute a 78 year old man, under
two local municipal temporary sign ordinances12. The City alleges that Ehlers
allegedly hung up a sign of a council member, depicting him as a jackass, and
labeling him a “fraud,

bully,” “liar,” and “corrupt.” The private prosecution is

happening in the same local court that the Defendant was prosecuted in in this
case, and the trial court, who was specially assigned to hear this issue, which
otherwise would be all purposes, distinguished Young by stating that the
private prosecution was permissible, because a City, and not a private
individual, was paying the bill. This can’t be right. Cert is required for
temporary restraining orders against journalists. See Ruben Vives, Great Read: A
Baldwin Park gadfly the mayor would love to swat away, LA TIMES, March 30,
2015, https://www.latimes.com/local/great-reads/la-me-cl-baldwin-park-gadflv20150330-storv.html: Eugene Volokh, Politician seeks restraining order against
critic who called her ‘politicalprostitute’and ‘honey’, THE WASHINGTON POST,
March 15, 2016, https://www.washingtonpost.com/news/volokhconspiracv/wp/2016/03/15/politician-seeks-restraining-order-against-critic-whocalled-her-political-prostitute-and-honev: Eugene Volokh, Baldwin Park (L.A.
suburb) city a ttorney threa tens local gadfly with restraining order — over two
‘harassing and offensive’ e-mails, THE WASHINGTON POST,August 7,
2014.https://www.wash.ingtonpost.com/news/volokhconspiracv/wp/2014/03/07/baldwin-park-l-a-suburb-citv-attornev-threatens-localgadfly-'with-restraining-order-over-two-harassing-and-offensive-e-mails/ & Ruben
Vives, Baldwin Park officials lose battle for restraining orders against critics, LA
TIMES, March 21, 2016, https://www.latimes.com/local/california/la-me-baldwinpark-free-speech-20160320-storv.html.
12 The private prosecution scheme is its latest attempt to silence political
dissidents, and an example of why this Court should grant review. See Colleen
Shalby, Sign Showing Councilman as ‘corrupt’ donkey at center of 1st Amendment
tiff, LA TIMES, Jan. 18, 2020, https://www.latimes.com/california/storv/202Q-0118/couneilman-ricardo-pacheco-baldwin-park-first-amendment. See LA Times
Colleen Shalby, Sign showing councilman as ‘corrupt’ donkey at center of 1st
Amendment tiff, Jan. 18, 2019.

15

clarification.
Robertson v. US Ex Rel. Watson - The Imperfect Case for
B.
Cert.
In Robertson, cert was dismissed, but Chief Justice Roberts dissented,
reasoning heavily on the evolution and history of the common law. 560 US 272
(2010). The Chief Justice held that only the government could file criminal
charges against an individual. {Id)
Now; this case tests the Chief Justice’s belief. Petitioner would advocate
further that only an agent of the crown, or in the U.S., the People (the
Sovereign), and not a contractor can criminally prosecute a Defendant and not a
contractor, which is analogous to the government hiring a mercenary.
If a city, which doesn’t have criminal prosecutorial powers, hires a private
lawyer - would that still be a permissible criminal prosecution under Due
Process? How about if a school district did so? (Aren’t school districts supposed
to be in the business of educating students, not criminal prosecution? Cities are
in the business of providing services too, unless there’s an elected city attorney.)
In several Southern California cases, cities hired private lawyers to
criminally prosecute misdemeanors, which resulted in enormous and crippling
attornej^’s fees for indigent defendants (as discussed below). A class action had
to be filed to end such practices. But the example illustrates the abuses of the
criminal justice system to line the pockets of private attorneys.
Also, for the purposes of filing criminal charges, is that public-private

16

i

contractual criminal prosecution service constitutional under Due Process? The
California Supreme Court has already held that even if public agencies hire a
private contractor as adjudicator (and not a prosecutor) that Due Process would
be violated because the petitioner would be presumed to have an unfair
hearing. (See Haas v. County of San Bernardino, 119 Cal.Rptr.2d 341 (2002))
The same reasoning should apply for contracted criminal prosecutors, no? Isn’t
the Defendant entitled to an impartial prosecutor under Due Process, like she is
for a disinterested adjudicator?
In Robertson, the Chief Justice stated, “Our entire criminal justice
system is premised on the notion that a criminal prosecution pits the
government against the governed, not one private citizen against another.” {Id.
at 2188). The Chief Justice reasoned, “A basic step in organizing a civilized
society is to take that sword out of private hands and turn it over to an
organized government, acting on behalf of all the people.” (2190). The Chief
then disagreed that cert should be dismissed and stated that cert should indeed
be granted and the question rephrased. {Id. at 2191).
Justice Sotomayer and Kennedy agreed with the Chief Justice and stated.
“THE CHIEF JUSTICE would hold that criminal prosecutions, including
criminal contempt proceedings, must be brought on behalf of the government. I
join his opinion”. {Id.)
In Robertson, Solicitor General Kagan also believed, “At common law, a
crime was a public wrong, and the sovereign was ‘the proper prosecutor for

17

every public offence.” ,£<?<? U.S. Solicitor General Brief.
For this reason, Kagan understood the potential problems of Due Process
raised by private prosecution. She stated, “The exercise of the sovereign's
prosecutorial authority by private individuals may raise constitutional
questions”. (Id.) In relying on Young, she noted, “Private prosecutions by
interested parties (such as respondent) also have the potential to raise due
process questions.” (Id.)
Kagan recommended dismissing cert in Robertson however, because the
Petitioner did not “raise this due process claim in his brief, however, and he has
affirmatively disavowed it previously. It is accordingly not before the Court.”
(Id.)
But here, Petitioner over and over again raised Due Process concerns
before the superior court and higher courts, arguing that a private prosecutor
billing by the hour violates Due Process, arguing that his prosecutor had two
masters, profit and justice. For a $238 traffic ticket, the private law firm is
estimated to have billed thousands of dollars for profit, in filing meritless briefs.
Also, the prosecutor refused to offer a fair plea deal and sought the maximum
punishment possible, all with the purpose of retaliation. The court appeared to
worsen the situation by effectively denying all Due Process protections to the
defendant - such as denying him the right to be represented by counsel as his
own expense. Yet, the court permitted the school district to have illegal private
representation. How come one side could be illegally represented but the

18

Defendant could not be?
Furthermore, since this case is a criminal case and not a criminal
contempt case, the question presented to the court is more straightforward.
With criminal contempt, the court has to grapple with dealing with an
adjudicated civil action - with criminal contempt acting as a remedy to enforce
a Defendant’s compliance with a court order.
There’s additional complexity in addressing private prosecution within a
criminal contempt action, as Justice Scalia pointed out in Young because of the
separation of powers doctrine. Here, unlike a criminal contempt action, the case
started as a criminal case and ended as a criminal case. It did not start as a ,
civil one, turning into criminal contempt. Therefore, the separation of powers i
doctrine does not complicate the matter here. Hence, Kagan’s concern for a
more factually sound case is present here and cert, should he granted.

€■*

The Trending National Problem of the Privatization off*.
C.
Criminal Prosecution.
This is not an isolated case. In fact, criminal prosecution is being
privatized across the country. Most egregious in this practice was in 2015, in
Southern California. In 2015, the City of Coachella hired the private law firm of
Silver and Wright to prosecute code enforcement violations. In one case, the
defendant was charged with a building violation. He paid $900 to fix the
violation, but Silver and Wright then charged him with 29 counts of a

19

misdemeanor and billed him $31,000.13
One elderly woman was fined nearly $6,000 for an infraction in having
too many chickens14, which turned into a misdemeanor prosecuted by a private
firm. (Id.) The City of Indio also hired Silver and Wright.15 Palm Springs also
nearly hired the private firm. (Id.)
In the end, the Institute of Justice and O’Melveny & Myers filed a class
action, which ended the scheme. Here, even though the City technically was
supervising this private law firm, the consequences were disastrous for these
poverty stricken residents in these cities. (Baldwin Park is also a poverty
stricken city.)
Private criminal prosecution is trending in Texas and Alabama. In Harris
County, Texas, the District Attorney is contracting out misdemeanor prosecutions
to private law firms.16 In Montgomery, Alabama, the privatization of probation
turned simple traffic tickets into a $4,713 fine, which was owed to the private
13 Scott H. Greenfield, It’s A Living for Silver & Wright, SIMPLE JUSTICE,
November 18, 2017, https://blog.simpleiustice.us/2017/ll/18/its-a-living-for-silverwright/.
14 Petitioner has hens too, and finds this concerning.
15 J. Justin Wilson, Class Action Lawsuit Challenges California Cities’ For-Profit
Prosecution Scheme, INSTITUTE FOR JUSTICE, February 14, 2018,
https://ii.org/press-release/class-action-lawsuit-challenges-california-cities-profitprosecution-scheme/#.
16 Samantha Ketterer, Advocacy groups protest Harris County DA for program
allowing civil lawyers to prosecute misdemeanors, HOUSTON CHRONICLE, Feb. 26,
2020, https://www.houstonchronicle.com/news/houstontexas/houston/arricle/Advocacy-groups-protest-Harris-Countv-DA-for15086342.php?utm source-The+Appeal&utm campaign=e707bc0020EMAIL CAMPAIGN 2018 08 09 .04 14 COPY Ol&utm medium=email&utm te
rm=0 72df992d84-e707bc0020-.

20

company.17
Closer to home, in Los Angeles County, the City of Beverly Hills has also
contracted the firm Dapeer, Rosenblit, Litvak LLP18 to prosecute misdemeanors
and infractions.
As already mentioned above, Petitioner re-cites to People v. Ehlers, Cal. Sup.
Ct. Case No. ELM9EM07323, (Arraignment Jan. 7, 2020), in which Defendant is
the attorney for the client in the case. In People v. Albert Ehlers, the City of
Baldwin Park hired the private law firm of Jones & Mayer to prosecute a 78 year
old man under sign ordinance, because he allegedly hung up a sign, depicting a
councilmember as a jackass, and called him a “fraud,” “bully,” “liar,” and “corrupt.”
In Ehlers, the private attorney, bills at $200 an hour, who originally agreed to drop
the charges if the sign came down, proceeded to continue with the case, even
though there’s no probable cause, because he could bill more hours. The private
prosecutor has continued the case for almost a year now.

T ‘

”, Sarah Stillman, Get Out ofJail, INC., THE NEW YORKER, June 26, 2014,
https://www.newvorker.com/magazine/2014/06/23/get-out-of-iailinc?utm source=The+Appeal&utm campaign=e707bc0020EMAIL CAMPAIGN 2018 08 09 04 14 COPY Ol&utm medium=email&utm te
rm=0 72df992d84-e707bc0020-.
18 (In her biography, Castillo states she prosecuted red light traffic infractions,
which fall under the criminal procedures that government misdemeanors. See
Penal Code § 19.7.) Caroline Karabian Castillo, Associate - Civil Trial Practice
andCode Enforcement Group, DRL LAW, (Last visited November 4, 2020),
http://www.drllaw.com/About/Caroline-K-Castillo.shtml.
Running a red light can cost over $500 for‘this infraction, which suggests a profit
motive for local agencies and private law firms.

21

People v. Ehlers clearly illustrates why cert needs to be granted. Private
prosecution, as this Court has already noted, encourages revenge prosecution,19 as
in Ehlers. And these type of revenge prosecutions, put the sword in the hands of
local agencies and not public prosecutors. And it appears that they wield that
sword, against political enemies, journalists, gadflies, and citizen activist who want
to criticize the government.
And given the fact that the City has a couple millions in reserve, it can
intimidate and bankrupt a defendant or wear out the public defender (who is
already resource strapped). And as with this City, the public officials are not
wasting their own money but public funds. For them, however, they can reap the

%

benefits of staying in office with the purpose of self-dealing in public funds - like
the Council Member that was exposed and forced to resign. It was that same
council member who sought private criminal prosecution against the Defendant for .t'j
hanging up a political sign that criticized him.
Hence, this public-private relationship is bad for democracy, as the case here
and Ehlers illustrate. Private prosecution of journalists and activists corrodes the
public participation process by chilling Free Speech and limits information
available to the marketplace. Generally, journalists and activists are trying to

19 The City has a long history of filing malicious cases against activists in civil
court. Since that hasn’t been working, the City has now taken a new step to take
political dissidents to criminal court for filings the District Attorney has declined.
Sec Eugene Volokh’s article here: https://www.washingtonpost.com/news/volokhconspiracy/wp/2016/03/15/politician-seeks-restraining-order-against-critic-whocalled-her-political-p:rostitute-and-honey/

22

-A

expose corruption or present their criticisms as to why politicians should be voted
out.
At the end of the day, cities exist to provide public services for the residents,
which would be better placed in their hands than in any individual, like a police
force. But they are not in the business of criminal prosecution; that’s what we have
the public prosecutor’s office, which is elected and can administer the values of the
people - whether that be deterrence or retribution.
And more dangerously in Ehlers, the private prosecutor is not even
answering to an administrator, who is appointed by the council and paid a flat
salary. The private attorney is answering to a City Attorney20 that is also
contracted,

making the private prosecutor a subcontractor and making

accountability and governance even more slippery. Both the contractor and
subcontractor exist for one purpose as well. Not justice, but making money. For all
these reasons, cert should be granted.
Finally, a more recent example illustrates this is still a current problem in
the federal courts too. The Intercept reports that around of August of 2019 - the
New York federal district court appointed a private law firm to prosecute an
environmental activist lawyer in criminal contempt charges “after the Southern

20 The City Attorney, Robert Tafoya has recently been served a federal search
warrant, implicating him in marijuana bribery scandal. See Ruben Vives & Adam
Ehlmahrek, FBI raids Compton councilman’s home, Baldwin Park city attorney’s
office in pot inquiry, LA TIMES, November 3, 2020,
https://www.latimes.com/california/story/2020-ll-03/fbi-cannabis-investigationbaldwin-park-compton

23

District of New York declined to do so — a move that is virtually unprecedented.
[Defendant’s] lawyer

has pointed out, the firm Kaplan chose, Seward & Kissel,

likely has ties to Chevron [the plaintiff in the civil action].”21 Hence, the problem
keeps popping up, is current, and needs to be reviewed by this Court.
D.
Infractions are Governed by Criminal Misdemeanor Law in
California.
Although one can argue that this is an infraction, this is still a factually
sound case and presents a pure question of law. There are no technical difficulties
or complications that were presented in Robertson. The Due Process arguments
were raised from superior court to the highest state court and now the highest
court in the land. The case highlights all the dangers and problems of a $238
infraction and the questions of justice that are presented by the profit motive of a
private law firm becoming entangled in our criminal justice system, especially
when a partner represents the case at $300 an hour. In California, infractions are
treated as misdemeanors under Cal. Pen. Code § 19.7. This Court has deferred to
California’s Legislature previously when it comes to questions of what the state
considers a serious crime. See Ewing v. California, 538 U.S. 11 (203). And here,
California has determined that the infraction of running a stop sign is governed by
its criminal justice system under Cal. Pen. Code § 19.7. Therefore, cert is still
warranted.

21 Sharon Lerner, How the Environmental Lawyer who won a massive Judgment
against Chevron lost everything, THE INTERCEPT, January 29, 2020,
https://theinterceDt.com/2020/01/29/chevron-ecijador-lawsuit-steven-donziger/

24

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted.

Paul Cook, Pro Se

25

